HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02660)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02660)
January 8, 2003
Complete Text of Report is available in PDF format
(503 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this analysis was to evaluate the effectiveness
of carriers claims processing systems in identifying payment reductions for
multiple ambulatory surgical center procedures for calendar years 1997 through
2001.  Regulations require that when multiple services are provided in
the same operative session, the highest paying procedure is reimbursable at
the full payment rate while the other procedures are reimbursable at one-half
the normal payment rate.  Our analysis showed that National Heritage Insurance
Company of Californias systems failed to identify such instances, which resulted
in provider overpayments for calendar years 1997 through 2001 of approximately
$49,543, $146,922, $170,412, $184,980 and  $224,414 ($776,271), respectively.
Included in the identified overpayments is approximately $157,998 in beneficiary
overpayments for coinsurance.  Most of the overpayments occurred because
the carriers processing system did not identify multiple procedures performed
during the same session when submitted on separate claims.